No.

IN THE SUPREME COURT OF THE UNITED STATES

DEVERICK SCOTT # 131042

PETITIONER

Vs.
PAMELA COOK

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
8th CIRCUIT COURT OF APPEALS

APPENDIX FOR PETITION FOR WRIT OF CERTIORARI

Presented by
Deverick Scott # 131042

Pro Se
P.O. Box 400
Grady, AR. 71644

APPENDIX

INDEX TO APPENDICES

APPENDIX A : Findings of United States District Court 1-7
APPENDIX B : Order of United States District Court
APPENDIX C : Judgment of United States Court of Appeals

♦•V, i f'-'V
' wv

■ ®ntteb i£>tate£ Court of Appeals;
•/
« i

>

jfor flje Cigljtl) Circuit ■ ‘*

:: *
■* k J '

>

T'

- i .

, . .No. 20-1323

Deverick Scott
Plaintiff - Appellant
v.
Pamela Cook, Sergeant, Varner Supermax
Defendant - Appellee
Appeal from United States District Court
for the Eastern District of Arkansas - Pine Bluff
i

Submitted: August 12, 2020
Filed: August 17, 2020
[Unpublished]
Before COLLOTON, WOLLMAN, and BENTON, Circuit Judges.

PER CURIAM.
In this 42 U.S.C. § 1983 action, Arkansas inmate Deverick Scott appeals the
district court’s1 adverse grant of summary judgment. Viewing the record in a light
'The Honorable D. P. Marshall Jr., Chief Judge, United States District Court
for the Eastern District of Arkansas, adopting the report and recommendations of the

< C

Case: 5:19-cv-00101-DPM

Document #: 30-0

Date Filed: 01/30/2020

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
DEVERICK SCOTT
ADC #131042
v.

PLAINTIFF
No. 5:19-cv-101-DPM

PAMELA COOK,
Sergeant, Varner Supermax

DEFENDANT
ORDER

On de novo review, the Court adopts Magistrate Judge Kearney's
recommendation, Ns 28, and overrules Scott's objections, Ns 29. FED. R.
Civ. P. 72(b)(3). Scott's grievance itself stated that he'd set his cell on
fire —not just on June 6th, but on three occasions. Ns 21-1. That
amounts to "some evidence" supporting Cook's disciplinary action.
Scott's retaliation claim therefore fails. Hartsfield v. Nichols, 511 F.3d
826, 829 (8th Cir. 2008). His motion for summary judgment, Ns 17, is
denied; and Cook's cross-motion for summary judgment, Ns 20, is
granted. Scott's complaint will be dismissed with prejudice.
So Ordered.
17

D.P. Marshall Jr.
United States District Judge
3Q JaMifaAV 302-9
/

^//X /

1

Case: 5:19-cv-00101-DPM

Document #: 28-0

Date Filed: 01/09/2020

Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
DEVERICK SCOTT,
ADC #131042
v.

PLAINTIFF
5:19CV00101 -DPM-JTK

PAMELA COOK

DEFENDANT
PROPOSED FINDINGS AND RECOMMENDATIONS
INSTRUCTIONS

The following recommended disposition has been sent to United States District Chief
Judge D. P. Marshall Jr. Any party may serve'and file written objections to this recommendation.
Objections should be specific and should include the factual or legal basis for the objection. If
the objection is to a factual finding, specifically identify that finding and the evidence that supports
your objection. An original and one copy of your objections must be received in the office of the
United States District Court Clerk no later than fourteen (14) days from the date of the findings
and recommendations.

The copy will be furnished to the opposing party.

Failure to file timely

objections may result in waiver of the right to appeal questions of fact.
If you are objecting to the recommendation and also desire to submit new, different, or
additional evidence, and to have a hearing for this purpose before the District Judge, you must, at
the same time that you file your written objections, include the following:

’‘v

1.

Why the record made before the Magistrate Judge is inadequate.

2.

Why the evidence proffered at the hearing before the District Judge (if such

a hearing is granted) was not offered at the hearing before the Magistrate Judge.
3.

The detail of any testimony desired to be introduced at the hearing before the

1

'J/K /?

Case: 5:19-cv-00101-DPM

Document #: 28-0

Date Filed: 01/09/2020

Page 2 of 7

District Judge in the form of an offer of proof, and a copy, or the original, of any
documentary or other non-testimonial evidence desired to be introduced at the hearing
before the District Judge.
From this submission, the District Judge will determine the necessity for an additional
evidentiary hearing, either before the Magistrate Judge or before the District Judge.
Mail your objections and “Statement of Necessity” to:
Clerk, United States District Court
Eastern District of Arkansas
600 West Capitol Avenue, Suite A149
Little Rock, AR 72201-3325
I.

Introduction
Plaintiff Deverick Scott, a state inmate incarcerated at the Varner Super Max Unit of the

Arkansas Division of Correction (ADC), filed this pro se action pursuant to 42 U.S.C. § 1983,
alleging retaliation by Defendant Cook. (Doc. No. 2)
This matter is before the Court on the parties' cross motions for Summary Judgment (Doc.
Nos. 17-9, 20-22) They each filed responses (Doc. Nos. 23-24, 25-27).
II.

Complaint
Plaintiff alleged he destroyed his blanket by setting it on fire on June 6, 2018, and

subsequently was charged with a disciplinary and placed on behavioral control. (Doc. No. 2, p. 2)
When he was released, he was issued used laundry. (Id.) After Defendant Cook denied his request
for new laundry, he filed a grievance stating that he set his laundry on fire, that the replacement
laundry he received was mildewed, and that Defendant refused to issue him new laundry. (Id.)
Defendant responded to the grievance by stating that she would replace his items but would take
disciplinary action against him. (Id-, P- 3) Plaintiff further alleged Defendant Cook then wrote

2

Case: 5:19-cv-00101-DPM

Document #: 28-0

Date Filed: 01/09/2020

Page 3 of 7

Plaintiff a disciplinary on September 24, 2018, in retaliation for the grievance he filed, noting that
she saw during her investigation that Plaintiff already received a written disciplinary on June 6,
2018 for setting fire to his cell. (Id.) Plaintiff also claimed Cook falsified her disciplinary report
when she stated Plaintiff burned up other laundry, even though he only destroyed his blanket. (Id.)
Plaintiffs second disciplinary was dismissed because of the previous disciplinary charge, and
Plaintiff claimed Defendant's actions violated his First Amendment right to use the inmate
grievance procedure and caused him emotional and mental distress and physical injuries. (Id., p.
4)

III.

Summary Judgment
Pursuant to Fed.R.Civ.P. 56(a), summary judgment is appropriate if the record shows that

there is no genuine issue of material fact and the moving party is entitled to judgment as a matter
of law. See Dulany v. Carnahan, 132 F.3d 1234, 1237 (8th Cir. 1997).

“The moving party bears

the initial burden of identifying ‘those portions of the pleadings, depositions, answers to
interrogatories, and admissions on file, together with the affidavits, if any, which it believes
demonstrate the absence of a genuine issue of material fact.’” Webb v. Lawrence Countv. 144 F.3d
1131, 1134 (8th Cir. 1998) (quoting Celotex Corn, v. Catrett. 477 U.S. 317, 323 (1986) (other
citations omitted)). “Once the moving party has met this burden, the non-moving party cannot
simply rest on mere denials or allegations in the pleadings; rather, the non-movant ‘must set forth
specific facts showing that there is a genuine issue for trial.’” Id- at 1135.

Although the facts are

viewed in a light most favorable to the non-moving party, “in order to defeat a motion for summary
judgment, the non-movant cannot simply create a factual dispute; rather, there must be a genuine
dispute over those facts that could actually affect the outcome of the lawsuit.” Id.
A.

Official Capacity
3

((

Case: 5:19-cv-00101-DPM

Document #: 28-0

Date Filed: 01/09/2020

Page 4 of 7

The Court initially agrees with Defendant that Plaintiffs monetary claims against her in
her official capacity should be dismissed, based on sovereign immunity. See Will v. Mich. Dep't
of State Police, 491 U.S. 58, 64-66 (1989), and Brown v. Missouri Dep't of Corrections. 353 F.3d
1038, 1041 (8th Cir. 2004)
B.

Individual Capacity

Plaintiff moves for summary judgment, stating that Defendant clearly wrote the September
24, 2018 disciplinary charge against him in retaliation for the grievance he filed about his laundry,
knowing he previously was charged for the June 6,2018 incident. In response, Defendant asks the
Court to dismiss Plaintiff5s claims against her in her individual capacity, based on qualified
immunity, which protects officials who act in an objectively reasonable manner.
Qualified immunity It may shield a government official from liability when his or her
conduct does not violate “clearly established statutory or constitutional rights of which a
reasonable person would have known.” Harlow v. Fitzgerald. 457 U.S. 800, 818 (1982).
Qualified immunity is a question of law, not a question of fact.

McClendon v. Storv Countv

Sheriffs Office, 403 F.3d 510, 515 (8th Cir. 2005). Thus, issues concerning qualified immunity
are appropriately resolved on summary judgment. See Mitchell v. Forsvth. 472 U.S. 511, 526
(1985) (the privilege is “an immunity from suit rather than a mere defense to liability; and like an
absolute immunity, it is effectively lost if a case is erroneously permitted to go to trial.”).
To determine whether defendant is entitled to qualified immunity, the courts generally
consider two questions: (1) whether the facts alleged or shown, construed in the light most
favorable to the plaintiff, establish a violation of a constitutional or statutory right; and (2) whether
that right was so clearly established that a reasonable official would have known that his or her

4

$

Case: 5:19-cv-00101-DPM

Document #: 28-0

Date Filed: 01/09/2020

Page 5 of 7

i
actions were unlawful.

Pearson v. Callahan. 555 U.S. 223, 232 (2009).1

Defendants are entitled

to qualified immunity only if no reasonable fact finder could answer both questions in the
affirmative. Nelson v. Correctional Medical Services. 583 F.3d 522, 528 (8th Cir. 2009).
According to the mostly undisputed facts, Plaintiff set fire to his cell on June 6,2018. (Doc.
No. 18, p. 6) Officer Marquis Taylor charged Plaintiff with destruction of property, unauthorized
use of state property, and setting a fire. (Id.) Plaintiff stated he served time in behavioral control
and when he was released, he received replacement property which was mildewed, because the
inmates working in the laundry area did not allow the laundry to properly dry. When Defendant
Cook denied his request for “new” items, he filed a grievance on September 18, 2018. (Doc. No.
8) Cook then responded that she would replace the items but that disciplinary action would be
taken for the destroyed property. (Id.) Cook filed a disciplinary against Plaintiff on September 24,
2018 and charged him with unauthorized use of state property, destruction of property, and setting
a fire, and noted the monetary charges for the destroyed property. (Id., p. 9) Plaintiff grieved that
disciplinary, which he considered retaliatory, and the Warden responded that Cook's disciplinary
charge was dismissed because of the previous disciplinary. (Id., pp. 10-12, 15-17)
In her Declaration, Defendant Cook stated that she is Laundry Supervisor at the Varner
Unit and is authorized to issue disciplinary charges against inmates. (Doc. No. 21-4) She wrote the
disciplinary against Plaintiff because he admitted in his September 24, 2018 grievance that he set
fire to his cell and burned his property. (Id-, p. 2) In his deposition testimony, Plaintiff admitted

‘Courts are “permitted to exercise their sound discretion in deciding which of the
two prongs of the qualified immunity analysis should be addressed first in light of the
circumstances in the particular case at hand.” Nelson. 583 F.3d at 528 (quoting Pearson v.
Callahan, 555 U.S. at 236).
5

Case: 5:19-cv-00101-DPM

Document #: 28-0

Date Filed: 01/09/2020

Page 6 of

it
that he set fire to his cell on at least three occasions, that his grievance statement that “sheets,
blankets, everything was on fire,” was not true, and that he wrote that because he wanted new
items. (Doc. No. 21, pp. 10-11)
To support a retaliation claim against Defendant, Plaintiff must allege and prove “that he
engaged in protected activity and that defendants, to retaliate for the protected activity, took
adverse action against [him] that would chill a person of ordinary firmness from engaging in that
activity.” Lewis v. Jacks, 486 F.3d 1025, 1028 (8th Cir. 2007). However, a retaliation claim is
precluded if the alleged retaliatory conduct violation was issued for the actual violation of a prison
rule, by the showing of “some evidence” that the inmate actually committed a rule violation.
Hartsfield v. Nichols, 511 F.3d 826, 829 (8th Cir. 2008). And, “a report from a correctional
officer, even if disputed by the inmate and supported by no other evidence, legally suffices as
‘some evidence’ upon which to base a prison disciplinary violation, if the violation is found by an
impartial decisionmaker.”

Id. at 831.

See also Sanders v. Hobbs. 773 F.3d 186, 190 (8th Cir.

2014).

In this case, Plaintiff admitted burning his blanket in his cell on several occasions and
admitted that he falsified his grievance when he stated that “my sheets blankets everything was on
fire 3 times. (Doc. No. 18, p. 13) He also admitted that he received replacement items, albeit
used and mildewed, and that he probably received the used items because he had set fire to property
on several occasions. (Doc. No. 21-5, pp. 10-11) Cook wrote the disciplinary charge based on
“some evidence, which was Plaintiffs admission in his grievance that he destroyed the property.
While it is somewhat curious why Cook filed the disciplinary, having discovered through her
investigation that Plaintiff was previously charged for his actions, Plaintiff provides nr> prnnf
retaliation. Cooks actions were not such that would “chill” an ordinary person from engaging in
6

f

S

Case: 5:19-cv-00101-DPM

Document #: 28-0

Date Filed: 01/09/2020

Page 7 of 7

future grievances, and in fact, Defendant provides proof that Plaintiff filed 127 grievances since
September 18, 2018. (Doc. No. 21-6) Finally, the Court notes that Cook's disciplinary charges
were dismissed as duplicative. (Doc. No. 18, pp. 15-17)
Therefore, the Court finds that Plaintiffs retaliation claim against Defendant is precluded
by the evidence which existed to support the charges, that Defendant acted reasonably under the
circumstances, and that no reasonable fact finder could find that the facts alleged or shown,
construed in the light most favorable to Plaintiff, establish a violation of a constitutional or
statutory right.
IV.

Conclusion
IT IS, THEREFORE, RECOMMENDED that Plaintiffs Motion for Summary Judgment

(Doc. No. 17) be DENIED, Defendant's Motion for Summary Judgment (Doc. No. 20) be
GRANTED, and Plaintiffs Complaint be DISMISSED with prejudice.
IT IS SO RECOMMENDED this 9th day of January, 2020.

JEROME T. KEARNEY
UNITED STATES MAGISTRATE JUDGE

7

